Infrastructure and Environment

Headquarters and Support Activities
Joint Cross-Service Group Data
Integrity and Internal Control Processes
for Base Realignment and Closure 2005
(D-2005-090)




              Department of Defense
             Office of Inspector General
 Qrr ality            h tegri h .      Accozmtuhili~*
  Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AT/FP                Anti-Terrorism/Force Protection
BRAC                 Base Realignment and Closure
COBRA                Cost of Base Realignment Actions
DFAS                 Defense Finance and Accounting Service
DoD OIG              Department of Defense Office of Inspector General
HSA                  Headquarters and Support Activities
ICP                  Internal Control Plan
IEC                  Infrastructure Executive Council
ISG                  Infrastructure Steering Group
JCSG                 Joint Cross-Service Group
JPAT 7               Joint Process Action Team Criterion Number 7
OSD                  Office of the Secretary of the Defense
SIOR                 Society of Industrial and Office Realtors
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                           July 15,2005

MEMORAN Dl JM FOR CHAIR, HEADQUARTERS AND SUPPORT ACTIVITIES
                  JOINT CROSS-SERVICE GROUP
SUBJECT: Report on Headquarters and Support Activities Joint Cross-Service Group
         Data Integrity and Internal Con~rolPr-ocessesfor Dasc Realignment and
         Closure 2005 (Report No. D-2005-090)

        We are providing this report for information and use. We considered
Headquarters and Support Activities Joint Cross-Service Group corn~nentson the draft of
this repnrt when preparing the final report. The complete text of the comments is in the
Management Comments section of the report.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah L. Clulp at (703) 604-9335 (DSN 664-9335) or Ms. Lisa M.Such at
(703) 603-9284 (DSN 664-9284). See Appendix D for the report distribution. The team
members are listed inside the back cover
                               By direction of the Deputy Inspector General for Auditing:

                                  62%2L/k?+
                                           Richard B. Jolliffe
                                      Assi stant Inspector General
                                         Contract Management
               Department of Defense Office of Inspector General
Report No. D-2005-090                                                       July 15, 2005
   (Project No. D2003-D000CG-0135.000)

         Headquarters and Support Activities Joint Cross-Service
          Group Data Integrity and Internal Control Processes
                for Base Realignment and Closure 2005



                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, members of the Headquarters and Support Activities (HSA) Joint Cross-
Service Group (JCSG), and anyone interested in the Base Realignment and Closure
(BRAC) process should read this report. The report discusses the validity, integrity, and
documentation of data used by HSA JCSG for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, to request that the Department of
Defense Office of Inspector General review the accuracy of BRAC data and the
certification process. In addition, the Department of Defense Office of Inspector General
was responsible for validating that the BRAC data used by the JCSGs for developing
recommendations were certified by the appropriate authority.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls: capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of
Base Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls
were collectively known as the second data call. This report is one of seven that
discusses JCSG involvement in the BRAC 2005 process.

Headquarters and Support Activities Joint Cross-Service Group. The HSA JCSG is
one of six JCSGs established by the Under Secretary of Defense for Acquisition,
Technology, and Logistics as the Chairman of the Infrastructure Steering Group on
March 15, 2003. The Infrastructure Steering Group later established a seventh JCSG.
Each JCSG was responsible for overseeing the joint cross-service analysis of functions
within its area. The Assistant Deputy Chief of Staff, G-8, Department of the Army was
appointed to chair the HSA JCSG, which was established to address common business-
related functions and processes across DoD, the Services, and the Defense agencies. The
HSA JCSG was composed of three functional areas for which separate and distinct
subgroups were formed: the Geographic Clusters and Functional Subgroup, the
Mobilization Subgroup, and the Major Administrative and Headquarters Activities
Subgroup.

Results. We evaluated whether the HSA JCSG used certified data and created an
adequate audit trail for capacity analysis and military value analysis. In addition, we
evaluated whether the HSA JCSG created an adequate audit trail for the data input to the
Cost of Base Realignment Actions model.

The HSA JCSG generally used certified data for capacity analysis and military value
analysis; however, it also used data obtained from authoritative sources and derived data.
In addition, after corrections were made, the HSA JCSG generally created adequate audit
trails for capacity analysis, military value analysis, and Cost of Base Realignment
Actions model input. The HSA JCSG complied with the Office of the Secretary of
Defense internal control plan and HSA JCSG standard operating procedures. Throughout
the BRAC process, the HSA JCSG took action to correct the deficiencies that we
identified; however, some data discrepancies and audit trail issues remained uncorrected
at the end of our fieldwork. We could not determine the materiality of the unresolved
data discrepancies and audit trail issues on the overall HSA JCSG BRAC process.

Management Comments and Audit Response. We provided a draft of this report on
June 10, 2005. Although no comments were required, the Chairman, HSA JCSG stated
that the group continued to work on specific deficiencies, but that it considered those
deficiencies to be relatively small because they had no material impact on the
recommendations. In addition, the Chairman stated there were six areas in which the
HSA JCSG disagreed with the DoD Office of Inspector General: use of authoritative
sources, derived data, judgment-based data, Anti-Terrorism/Force Protection Premium,
commercial data sources, and eliminations/rounding.

The DoD Office of Inspector General auditors continued to review corrections made by
the HSA JCSG between the issuance of the draft and final reports. The HSA JCSG made
additional corrections to capacity analysis, military value analysis, and Cost of Base
Realignment Actions model input data; however, the HSA JCSG stated that not all of
these corrections were forwarded to the OSD BRAC office. In addition, we did not take
issue with the six areas that the HSA JCSG identified, but we highlighted them for full
disclosure of the HSA JCSG process. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                          i

Background                                                                 1

Objectives                                                                 6

Finding
     Headquarters and Support Activities Joint Cross Service Group Data
        Integrity and Internal Control Processes                           7

Appendixes
     A. Scope and Methodology                                             15
        Management Control Program Review                                 20
     B. Prior Coverage                                                    21
     C. Review of COBRA Model Input for Potential Candidate
          Recommendations                                                 23
     D. Report Distribution                                               29

Management Comments
     Headquarters and Support Activities Joint Cross-Service Group        31
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. Congress authorized a Base
    Realignment and Closure (BRAC) in 2005. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The deadline
    for the Secretary of Defense to submit recommendations to the independent
    Commission was May 16, 2005.

    In the Secretary of Defense “Transformation Through Base Realignment and
    Closure (BRAC 2005) Memorandum,” November 15, 2002, the Secretary of
    Defense established two senior groups to oversee and operate the BRAC 2005
    process. The two senior groups were the Infrastructure Executive Council (IEC)
    and the Infrastructure Steering Group (ISG). Distinct functional boundaries and
    levels of authority separated these two groups. The Secretary of Defense
    established and chartered the IEC and the ISG as the BRAC 2005 deliberative
    bodies responsible for leadership, direction, and guidance.

    Infrastructure Executive Council. The IEC was chaired by the Deputy
    Secretary of Defense and was composed of the Secretaries of the Military
    Departments and their Chiefs of Services, the Chairman of the Joint Chiefs of
    Staff, and the Under Secretary of Defense for Acquisition, Technology, and
    Logistics. The IEC was the policymaking and oversight body for the entire
    BRAC 2005 process and the approval authority for all BRAC recommendations
    to the Secretary of Defense.

    Infrastructure Steering Group. The ISG was chaired by the Under Secretary of
    Defense for Acquisition, Technology, and Logistics and was composed of the
    Vice Chairman of the Joint Chiefs of Staff, the Military Department Assistant
    Secretaries for Installations and Environment, the Service Vice Chiefs, and the
    Deputy Under Secretary of Defense for Installations and Environment. The ISG
    oversaw the joint cross-service analyses of common business-oriented functions
    and ensured that the process was integrated with the Military Department and
    Defense agency-specific analyses of all other functions. The ISG provided
    progress reports to the IEC. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics had the authority and responsibility for issuing the
    operating policies and detailed direction necessary to conduct the BRAC 2005
    analyses.

           •   “Transformation Through Base Realignment and Closure
               (BRAC 2005) Policy Memorandum One—Policy, Responsibilities,
               and Procedures,” (Policy Memorandum One), April 16, 2003.
               Policy Memorandum One applies to the Military Departments,
               Defense agencies (DoD Components), and Joint Cross-Service Groups
               (JCSGs) in developing the Secretary of Defense BRAC

                                        1
    recommendations for submission to the 2005 BRAC Commission for
    its review. Policy Memorandum One describes policy,
    responsibilities, and procedures to be followed by participants in the
    BRAC process. Additionally, Appendix B of Policy Memorandum
    One is the Office of the Secretary Defense (OSD) internal control plan
    (ICP) for the BRAC 2005 process, which the JCSGs were to use in
    order to ensure the accuracy of data collection and analysis.

•   “Policy Memorandum Two—BRAC 2005 Military Value
    Principles,” October 14, 2004. Policy Memorandum Two states that
    all recommendations made by the JCSGs and Military Departments
    will use military value as the determining factor. When making
    realignment or closure recommendations, JCSGs and Military
    Departments were to apply appropriate use of military judgment in
    order to meet all requirements by the Department. Military judgment
    is applied through the following principles: Recruit and Train; Quality
    of Life; Organize; Equip; Supply, Service, and Maintain; Deploy and
    Employ (Operational); and Intelligence.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Three—Selection Criterion 5,”
    December 7, 2004. Policy Memorandum Three describes how BRAC
    Selection Criterion 5 will be implemented during the BRAC process.
    The JCSGs and Military Departments were to apply Selection
    Criterion 5 to their scenarios to estimate the projected costs and
    savings.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Four—Selection Criteria 7
    and 8,” December 7, 2004. Policy Memorandum Four provides
    guidance and clarification on the assessment of communities’
    infrastructure and consideration of the environmental impacts of
    realignment and closure scenarios.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Five—Homeland Defense,”
    December 10, 2004. Policy Memorandum Five gives guidance that
    establishes policies and procedures for the Military Departments and
    JCSGs to ensure that DoD retains the necessary capabilities to support
    the homeland defense mission.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Six—Selection Criterion 6,”
    December 20, 2004. Policy Memorandum Six provides guidance that
    establishes policies and procedures for the Military Departments and
    JCSGs on how to use the Economic Impact Tool when applying
    BRAC Selection Criterion 6 to realignment and closure scenarios.



                             2
       •   “Transformation Through Base Realignment and Closure
           (BRAC 2005) Policy Memorandum Seven—Surge,”
           January 4, 2005. Policy Memorandum Seven provides guidance for
           the Military Departments and JCSGs to meet the DoD statutory
           requirement to consider surge in realignment and closure scenarios.

       •   “Transformation Through Base Realignment and Closure
           (BRAC 2005) Policy Memorandum Eight—Selection Criterion 8,”
           January 4, 2005. Policy Memorandum Eight provides guidance on
           how to identify the environmental impacts of a particular scenario in
           order to provide decision makers with the information they need to
           fully consider the impacts.

Joint Cross-Service Groups. In addition to realigning base structure, a primary
objective of BRAC 2005 was to examine and implement opportunities for greater
joint activity. Prior BRAC analyses considered all functions on a Service-by-
Service basis and therefore, did not result in the joint examination of functions
that cross Services. The JCSGs addressed issues that affect common business-
oriented support functions, examined functions in the context of facilities, and
developed realignment and closure recommendations based on force structure
plans of the Armed Forces and on selection criteria. The JCSGs reported their
results through the ISG to the IEC. The OSD established seven JCSGs:
Education and Training; Headquarters and Support Activities (HSA), formerly
known as the Administration JCSG; Industrial; Intelligence; Medical; Supply and
Storage; and Technical. Each JCSG was responsible for overseeing the joint
cross-service analysis of functions within its area.

Headquarters and Support Activities Joint Cross-Service Group. The HSA
JCSG was one of six JCSGs established by the Under Secretary of Defense for
Acquisition, Technology, and Logistics as the Chairman of the ISG on
March 15, 2003. The ISG later added a seventh JCSG. Chaired by the Assistant
Deputy Chief of Staff, G-8, Department of the Army, the HSA JCSG was
composed of six principal members representing each of the four Services, the
Joint Staff, and OSD. The HSA JCSG was established to address common
business-related functions and processes across DoD, the Services, and the
Defense agencies. The HSA JCSG scope was further narrowed into three
functional areas for which separate and distinct subgroups were formed: the
Geographic Clusters and Functional Subgroup, the Mobilization Subgroup, and
the Major Administrative and Headquarters Activities Subgroup.

        Geographic Clusters and Functional Subgroup. The Administrative
Assistant to the Secretary of the Air Force chaired the Geographic Clusters and
Functional Subgroup. The Subgroup was divided into teams to further address
the following four functions: installation management, personnel, corrections,
and financial management. Analysis of the functions included the following:

   •   Installation Management. The installation management function analyzed
       installations in geographic clusters to evaluate the potential for reducing
       or eliminating redundant or duplicative support functions.

                                    3
   •   Personnel. The personnel function analyzed opportunities and
       possibilities for collocating or consolidating civilian and military
       personnel functions. The HSA JCSG further broke out the personnel
       function into the Civilian Personnel Team and Military Personnel Team.

   •   Corrections. The corrections function analyzed correctional facilities to
       evaluate the potential for transferring prisoner load or consolidating
       activities.

   •   Financial Management. The financial management function analyzed
       Defense Finance and Accounting Service (DFAS) central and field
       operating sites to evaluate the potential for combining functions to reduce
       the size and number of DFAS locations.

       Mobilization Subgroup. The Deputy Commandant for Manpower and
Reserve Affairs, Headquarters Marine Corps chaired the Mobilization Subgroup.
Analysis of this function included any activity that is performed to bring Reserve
and National Guard members to active military service.

       Major Administrative and Headquarters Activities Subgroup. The
Commandant of Naval District Washington, Department of the Navy chaired the
Major Administrative and Headquarters Activities Subgroup. Analysis of this
function included the availability and support of common services and facilities
within and outside the National Capital Region.

BRAC Data Calls. The BRAC 2005 data collection process, which was
mandated for the United States and its territories, was divided into the following
data calls: capacity analysis, supplemental capacity, military value, Cost of Base
Realignment Actions (COBRA), Joint Process Action Team Criterion Number 7
(JPAT 7), and scenario specific. The supplemental capacity, military value,
COBRA, and JPAT 7 data calls were collectively known as the second data call.
Each JCSG developed data call questions related to capacity analysis and military
value to obtain information about the functions that it reviewed. Each JCSG
issued a capacity analysis and military value analysis report. Each data call had a
specific purpose as follows.

       •   The capacity analysis data call gathered data on infrastructure, current
           workload, surge requirements, and maximum capacity.

       •   The supplemental capacity data call clarified inconsistent data
           gathered with the initial capacity analysis data call.

       •   The military value data call gathered data on mission requirements,
           land and facilities, mobilization and contingency, and cost and
           manpower.

       •   The COBRA data call gathered data to develop costs, savings, and
           payback (formerly known as return on investments) of proposed
           realignment and closure actions.

                                     4
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios.1

                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           OSD Master Database. DoD collected certified data for BRAC 2005 using a
           mix of automated and manual processes. The Services and six Defense agencies
           used automated tools to collect the data while the other Defense agencies and
           organizations collected data in electronic format for the data calls. Portions of
           that automated data were then transferred to OSD and compiled into Microsoft
           Access databases called the Capacity Analysis Database and the Military Value
           Analysis Database. We refer to the Capacity Analysis Database and the Military
           Value Analysis Database together as the OSD Master Database, which OSD used
           as the centralized point of data distribution to the JCSGs. However, some data
           were collected external to the OSD Master Database and provided to the JCSGs
           separately.

           COBRA Model. The COBRA model provides a uniform methodology for
           estimating and itemizing projected costs and savings associated with BRAC
           scenarios. The COBRA model calculates the costs, savings, and payback of
           proposed realignment and closure actions. It is not designed to produce budget
           estimates, but to provide a consistent method of evaluating these actions. The
           COBRA model calculates the costs and savings of scenarios over a period of
           20 years. It models all activities (moves, construction, procurements, sales,
           closures) as taking place during the first 6 years, and thereafter, all costs and
           savings are treated at a steady state. The key output value produced is the
           payback year; which is the point when the realignment or closure has paid for
           itself and net savings start to accrue. The COBRA model can also be used to
           compare the relative cost and savings differences among various scenarios.

           To perform COBRA analysis, the HSA JCSG loaded scenario-specific data into
           the COBRA model. These data, used in combination with model algorithms and
           standard cost factors already developed and pre-loaded into the model, resulted in
           an estimate of costs, savings, and payback for the proposed realignment or closure
           scenario. To obtain the necessary COBRA model input, the HSA JCSG
           developed and issued COBRA-related questions during the scenario-specific data
           calls. These COBRA-related questions primarily focused on data not previously
           gathered for specific gaining or losing sites.

           Internal Control Plans. The OSD ICP was issued as part of Policy
           Memorandum One. Appendix B of Policy Memorandum One was the ICP for all
           JCSGs. In addition, each JCSG prepared standard operating procedures that
           further delineated controls specific to that JCSG.


1
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.
                                                        5
    In October 2003, the HSA JCSG prepared standard operating procedures and
    issued the procedures in April 2005 after a series of updates. The standard
    operating procedures supplemented the OSD ICP in that they addressed HSA
    JCSG-specific data controls, office and computer security, and included a process
    for the use of judgment-based data and assumptions.

    DoD Office of Inspector General Responsibility. Policy Memorandum One
    requires the DoD Office of Inspector General (OIG) to provide ICP development
    and implementation advice and review the accuracy of BRAC data and the
    certification process. In addition, the memorandum requires DoD OIG personnel
    to assist the JCSGs and DoD Components as needed. This resulting report
    summarizes issues related to the HSA JCSG BRAC 2005 process.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    documentation of data used by HSA JCSG. Specifically, we determined whether
    the HSA JCSG used certified data and created an adequate audit trail for capacity
    analysis and military value analysis. In addition, we determined whether the HSA
    JCSG created an adequate audit trail for its potential candidate recommendations.

    We also evaluated whether the HSA JCSG complied with the OSD ICP and the
    specific HSA JCSG standard operating procedures. This report is one in a series
    on JCSG data integrity and internal control processes for BRAC 2005. See
    Appendix A for a discussion of the audit scope and methodology and our review
    of the management control program related to the objectives. See Appendix B for
    prior coverage.




                                        6
           Headquarters and Support Activities
           Joint Cross-Service Group Data Integrity
           and Internal Control Processes
           The HSA JCSG generally used certified data for capacity analysis and
           military value analysis; however, it also used data obtained from
           authoritative sources and derived data. In addition, after corrections were
           made, the HSA JCSG generally created adequate audit trails for capacity
           analysis, military value analysis, and COBRA model input. The HSA
           JCSG complied with the OSD ICP and HSA JCSG standard operating
           procedures. Throughout the BRAC process, the HSA JCSG took action to
           correct the deficiencies that we identified; however, some data
           discrepancies and audit trail issues remained uncorrected at the end of our
           fieldwork. We could not determine the materiality of the unresolved data
           discrepancies and audit trail issues on the overall HSA JCSG BRAC
           process.


HSA JCSG Data Integrity and Documentation for BRAC 2005
    The HSA JCSG generally used certified data for capacity analysis and military
    value analysis; however, it also used data from authoritative sources and derived
    data. Further, after corrections were made, the HSA JCSG generally created
    adequate audit trails for capacity analysis, military value analysis, and COBRA
    model input. Public Law 101-510, “Defense Base Closure and Realignment Act
    of 1990,” as amended, section 2903(c)(5) requires that all information used to
    develop and make realignment and closure recommendations to the Secretary of
    Defense and the 2005 BRAC Commission must be certified as accurate and
    complete to the best of the certifier’s knowledge and belief. Additionally, the
    BRAC 2005 OSD ICP states that the BRAC 2005 process will be recorded and
    clearly documented to ensure the integrity of the process performed by the
    JCSGs.

    Authoritative Data. The HSA JCSG used data from authoritative sources for
    military value analysis and COBRA model input. The OSD ICP states,
           Any data file forwarded to the JCSGs by the Military Departments or
           Defense Agencies must be certified. Data and information gathered
           from authoritative or official sources external to DoD (such as the
           Bureau of Labor Statistics national employment data) need only be
           certified as to the source if the sources’ accuracy can be determined by
           the audit community in accordance with U.S. General Accounting
           Office (GAO) [agency name changed to U.S. Government
           Accountability Office on July 7, 2004] guidance.



                                              7
           Specifically, the HSA JCSG used data from the following authoritative sources:
           Department of Labor, Federal Emergency Management Agency, Joint Travel
           Regulation, Office of Personnel Management, and U.S. Census Bureau. The
           HSA JCSG also used the Defense Technical Information Center, CoStar,2 and the
           Society of Industrial and Office Realtors (SIOR) databases; however, those
           sources are not authoritative as defined by the OSD ICP.

           Derived Data. The HSA JCSG used derived data for capacity analysis and
           military value analysis and for COBRA model input. It also developed and
           applied factors to certified data, which resulted in the derived data that were used
           in the analytical process. During deliberative meetings and in memorandums,
           either the principal members or the Chair of the HSA JCSG approved the use of
           certain HSA JCSG-developed factors, which included, but were not limited to, the
           following: personnel savings, square footage, lease cost estimates, and
           Anti-Terrorism/Force Protection (AT/FP) premiums.

           Capacity Analysis. The HSA JCSG generally used certified data for capacity
           analysis; however, it also used derived data. In addition, the HSA JCSG
           generally created an adequate audit trail after corrections were made. An initial
           validation was performed from November 2004 through February 2005 to
           determine whether the HSA JCSG used certified data obtained from the OSD
           Master Database and created an adequate audit trail. Additionally, we validated
           data collected external to the OSD Master Database and determined whether it
           was certified by the appropriate designated personnel. A second validation of the
           capacity analysis data was performed from March 2005 through May 2005.
           During both validations, we identified data discrepancies and audit trail issues and
           briefed the results to the HSA JCSG subgroups or teams. The HSA JCSG took
           corrective action to address most data discrepancies and audit trail issues. After
           we issued the draft audit report, the HSA JCSG provided additional supporting
           documentation and we revalidated the discrepancies identified in the draft audit
           report. The following describes the outstanding data discrepancies and audit trail
           issues and includes statements which identify where derived data were used for
           analysis. We could not determine the materiality of the unresolved data
           discrepancies and audit trail issues on the overall HSA JCSG BRAC process.

                    Installation Management Team. The Installation Management Team
                    did not use the certified data reported in the OSD Master Database for
                    over
                    90 data elements. After we issued the draft audit report, the Installation
                    Management Team provided supporting documentation to the DoD OIG
                    auditors for the revisions that were made to the identified data elements.
                    The Installation Management Team correctly revised over 65 data
                    elements and stated that the revisions were incorporated into the final
                    Capacity Analysis report. However, the 25 remaining data elements were
                    incorrectly revised. Subsequently, the Installation Management Team
                    corrected the 25 data elements but stated that the revisions were not
                    incorporated into the final Capacity Analysis report. The Installation

2
    CoStar is an external database of current commercial market-based lease cost information.
                                                      8
       Management Team believes those changes had no effect on the capacity
       analysis.



       Civilian Personnel Team. The Civilian Personnel Team used derived
       data based on HSA JCSG-approved factors for useable and gross square
       footage to calculate Current Capacity, Maximum Potential Capacity, and
       Current Usage.

       Military Personnel Team. The Military Personnel Team used derived
       data based on HSA JCSG-approved factors for useable and gross square
       footage to calculate Current Capacity, Maximum Potential Capacity, and
       Current Usage.

       Financial Management Team. The Financial Management Team used
       derived data based on HSA JCSG-approved factors for calculating Current
       Usage.

       Major Administrative and Headquarters Activities Subgroup. The
       Major Administrative and Headquarters Activities Subgroup used derived
       data based on HSA JCSG-approved factors for useable and gross square
       footage to calculate Current Capacity and Current Usage.

Military Value Analysis. The HSA JCSG generally used certified data for
military value analysis; however, it also used data obtained from authoritative
sources and derived data. In addition, the HSA JCSG generally created an
adequate audit trail after corrections were made. An initial validation was
performed from November 2004 through March 2005 to determine whether the
HSA JCSG used certified data obtained from the OSD Master Database and
whether it created an adequate audit trail. Additionally, we validated data
collected external to the OSD Master Database and determined whether it was
certified by the appropriate designated personnel. A second validation of the
military value analysis data was performed from March 2005 through May 2005.
During both validations, we identified data discrepancies and audit trail issues.
For example, the Major Administrative and Headquarters Activities Subgroup
created a methodology that used a numeric system for converting and analyzing
facility condition codes. The Army and Navy do not report facility condition
codes in numerals. After corrections were made, the methodology was
adequately documented; however, the methodology did not allow the Army or
Navy to score as high as Air Force facilities. The Major Administrative and
Headquarters Activities Subgroup, the Corrections Team, the Civilian Personnel
Team, and the Military Personnel Team used this methodology. The groups did
not adequately document the facility codes that each team used for its analysis.
Therefore, we could not recreate the facility condition codes for numerous
locations in the HSA JCSG military value analysis.

We briefed the results to the HSA JCSG subgroups or teams. The HSA JCSG
provided supporting documentation after we issued the draft audit report, and we

                                    9
revalidated the issues identified in the draft audit report. The following describes
the outstanding data discrepancies and audit trail issues and statements that
identify where authoritative and derived data were used for analysis. We could
not determine the materiality of the unresolved data discrepancies and audit trail
issues on the overall HSA JCSG BRAC process.

       Civilian Personnel Team. The Civilian Personnel Team had one minor
       data discrepancy for one location and did not correct this discrepancy after
       the draft report was issued. The HSA JCSG believes the data element is
       immaterial and does not affect the military value ranking.

       Financial Management Team. The Financial Management Team used
       data from the Office of Personnel Management and Department of Labor
       Web sites. The Financial Management Team normalized data elements in
       the “Hiring” column at three locations and in the “On a DoD Installation”
       column at two locations. The Financial Management Team used two
       acceptable methodologies to normalize the “Hiring” data. For
       consistency, we suggested using one methodology.

       Major Administrative and Headquarters Activities Subgroup. The
       Major Administrative and Headquarters Activities Subgroup used data
       obtained from the Office of Personnel Management, the U.S. Census
       Bureau, the Defense Technical Information Center, and the Federal
       Emergency Management Agency. The Major Administrative and
       Headquarters Activities Subgroup also used derived data based on HSA
       JCSG-approved factors to convert useable square footage to gross square
       footage. Further, the Major Administrative and Headquarters Activities
       Subgroup did not use the certified data for about 60 data elements. After
       we issued the draft audit report, the HSA JCSG revised 30 data elements,
       but stated that revisions were not incorporated in the final Military Value
       Analysis report forwarded to the OSD BRAC office. The remaining
       30 data elements were not corrected.

       Mobilization Subgroup. The Mobilization Subgroup used data obtained
       from the Joint Travel Regulation to determine per diem costs. The
       Mobilization Subgroup provided inconsistent and unclear written
       methodologies for the “Total Number of Ranges” and “Total Fire Points”
       columns. Further, two minor data discrepancies were identified in the data
       elements. After we issued the draft audit report, the HSA JCSG provided
       adequate methodologies and corrected the data discrepancies, but it stated
       that the revisions were not incorporated into the final submission
       forwarded to the OSD BRAC office.

COBRA Model Input. After corrections were made, the HSA JCSG generally
created adequate audit trails for COBRA model input. The HSA JCSG used
certified data, derived data, and data from authoritative sources for COBRA
model input, and also sought approval from the ISG to use commercial data
sources. In addition, the principal members deliberated and approved the use of


                                     10
factors and methodologies. The following information is included in the COBRA
model input.

   •   Anti-Terrorism/Force Protection. The HSA JCSG reported total AT/FP
       savings of about $208.8 million for 12 candidate recommendations
       (HSA-0031, HSA-0045, HSA-0047, HSA-0053, HSA-0071, HSA-0078,
       HSA-0099, HSA-0108, HSA-0109, HSA-0114, HSA-0132, and
       HSA-0145). The HSA JCSG assumed that all current leased space is not
       compliant with AT/FP guidance, and calculated a “One-Time Unique
       Savings” in the COBRA model by applying an AT/FP premium of $28.28
       per gross square foot to current existing leased space square footage.
       Based on existing questions that the HSA JCSG asked during the BRAC
       data calls, information was not obtained to reasonably assess the current
       state of AT/FP compliance among the existing leased facilities.
       Specifically, data were not obtained on improvements already made, those
       required for future compliance, and on the potential for movement into
       AT/FP-compliant space.

   •   Commercial Data Sources. The HSA JCSG used commercial data
       sources to calculate “Miscellaneous Recurring Savings” in the COBRA
       model for potential candidate recommendations reviewed (HSA-0031,
       HSA-0045, HSA-0047, HSA-0053, HSA-0071, HSA-0099, HSA-0109,
       HSA-0114, HSA-0132, and HSA-0145) and reported a total savings of
       about $493.5 million from FY 2006 through FY 2011. The HSA JCSG
       considered two commercial sources, the CoStar and SIOR databases, as
       authoritative data. CoStar is an external database of current commercial
       market-based lease cost information. The HSA JCSG also used the SIOR
       database, which provided data for markets not covered in CoStar.

   •   Personnel Reductions. The HSA JCSG developed and applied factors to
       certified data in scenarios where consolidation of activities with similar
       common support functions could yield potential savings. The HSA JCSG
       approved personnel savings factors ranging from about 1 percent to
       30 percent, which it applied to specific potential candidate
       recommendations.

We reviewed the COBRA model input for 15 of 21 HSA JCSG potential
candidate recommendations (see Appendix C). We did not fully validate the
remaining six potential candidate recommendations because of time constraints or
because the potential candidate recommendation was provided to the Military
Departments for further analysis. All COBRA validation was performed using
COBRA model version 6.10. During our review, we identified data discrepancies
and audit trail issues. The HSA JCSG corrected many of the issues identified (see
Appendix C); however, some data discrepancies and audit trail issues remained
uncorrected at the end of our fieldwork.




                                   11
HSA JCSG Internal Control Processes for BRAC 2005
    The HSA JCSG complied with the OSD ICP and the HSA JCSG standard
    operating procedures. We evaluated whether the HSA JCSG complied with the
    OSD ICP and the HSA JCSG standard operating procedures during the BRAC
    process. Specifically, we attended meetings to observe the deliberation process,
    reviewed meeting minutes used to document the process, and verified that the
    meeting participants signed nondisclosure agreements. We also reviewed
    controls such as data transfer, storage, maintenance, and office and computer
    security for safeguarding the BRAC data.

    Compliance with OSD ICP. The HSA JCSG generally complied with the OSD
    ICP procedures during the BRAC process. The ICP procedures required that:

       •   the BRAC 2005 process be clearly recorded;

       •   information used in the analysis be certified by the appropriate authority
           for accuracy and completeness and be used consistently;

       •   data collected and used for analyses or decision making, or both, be
           obtained from appropriate sources;

       •   minutes be recorded for all deliberative meetings;

       •   oral briefings be captured in minutes;

       •   outside studies be brought to the attention of any BRAC group;

       •   technical experts submit information or data in writing with the required
           certification if the JCSG considers the data relevant;

       •   nondisclosure agreements be maintained for all participants in the BRAC
           process; and

       •   BRAC 2005 documents be marked as draft deliberative and/or sensitive.

    Compliance with Standard Operating Procedures. The HSA JCSG generally
    complied with its standard operating procedures during the BRAC process. The
    HSA JCSG standard operating procedures required that:

       •   the BRAC information be safeguarded through physical security and
           computer security;

       •   release or receipt of the BRAC information be controlled;

       •   facsimile and e-mail not be used for information dealing with scenarios,
           alternatives, and recommendations;


                                        12
       •   analysis be performed by specified HSA JCSG staff in the designated
           space except when external expertise and assistance are needed and
           approved;

       •   data integrity be maintained in three segregated databases with appropriate
           user-right controls and periodic backups; and

       •   judgment-based data and assumptions be limited to substitution for
           unobtainable certified data, approved by the JCSG principal members, and
           documented in minutes.

    In addition, from June 16, 2004 through June 22, 2004, we conducted a quality
    control review of the data conversion process performed by the HSA JCSG to test
    its reliability and accuracy. The data conversion process required the HSA JCSG
    to convert certified data responses received in Microsoft Word to Microsoft
    Access. DoD collected certified data for BRAC 2005 using a mix of automated
    and manual processes. The Services and six Defense agencies used automated
    tools to collect the data; the other Defense agencies and organizations used an
    electronic Microsoft Word document format to collect data. The HSA JCSG
    processed the electronic Microsoft Word documents received from OSD into
    Microsoft Access files for incorporation into the HSA JCSG Master Database and
    Capacity Analysis Database. In addition, the HSA JCSG conducted quality
    assurance reviews by meeting with representatives from the applicable Defense
    agencies and organizations to review the data conversion process and results. We
    determined that the HSA JCSG accurately converted the certified data.


Conclusion
    The HSA JCSG used certified data, but it also used data obtained from
    authoritative sources and derived data for capacity analysis and military value
    analysis. In addition, the HSA JCSG generally created adequate audit trails for
    capacity analysis, military value analysis, and COBRA model input after
    corrections were made. The HSA JCSG generally complied with the OSD ICP
    and HSA JCSG standard operating procedures.

    After completing our reviews, we discussed the results with the HSA JCSG,
    which then took steps to correct most of the data discrepancies and audit trail
    deficiencies. However, the HSA JCSG stated that not all of the corrections were
    provided to the OSD BRAC office prior to the Secretary making his
    recommendations. We could not determine the materiality of the unresolved data
    discrepancies and audit trail issues on the overall HSA JCSG BRAC process.




                                        13
Management Comments on the Finding and Audit Response
    Although not required, the Chairman, HSA JCSG commented on the draft report.
    For the full text of comments, see the Management Comments section of the
    report.

    HSA JCSG Comments. The Chairman, HSA JCSG stated that the HSA JCSG
    disagreed with the following six areas discussed in the draft report: use of
    authoritative sources, derived data, judgment-based data (normalized data
    elements), Anti-Terrorism/Force Protection Premium, market-based leased costs
    (commercial data sources), and eliminations/rounding (personnel reductions).
    According to the HSA JCSG, these methodologies were necessary to accomplish
    their analytical process. The HSA JCSG stated that the data deficiencies
    identified by the DoD OIG had no material impact on the recommendations.

    Audit Response. Auditors in the DoD OIG continued to review corrections made
    by the HSA JCSG between the issuance of the draft and final reports. The HSA
    JCSG made additional corrections to capacity analysis, military value analysis,
    and COBRA model input data; but stated that not all of these corrections were
    forwarded to the OSD BRAC office. In addition, we did not take issue with the
    six areas that the HSA JCSG identified, but we instead highlighted them for full
    disclosure of the HSA JCSG process.




                                       14
Appendix A. Scope and Methodology
We evaluated the validity, integrity, and documentation of data used by the HSA
JCSG. Specifically, we determined whether the HSA JCSG used certified data
and created an adequate audit trail for capacity analysis, military value analysis,
and for COBRA model input for its candidate recommendations. We also
evaluated whether the HSA JCSG complied with the OSD ICP and HSA JCSG
standard operating procedures.

We performed reviews to determine whether the HSA JCSG used certified data or
data obtained from authoritative sources for developing BRAC recommendations.
We evaluated the integrity of the HSA JCSG BRAC 2005 process. Our
evaluation included:

       •    verifying whether methodologies were sufficiently documented, and

       •    comparing data used to make deliberative decisions to certified or
            authoritative data.

From June 2003 through June 2005, we attended the HSA JCSG meetings. We
reviewed the formal minutes and briefing charts of the meetings to verify that
decisions made by the HSA JCSG were adequately documented. During the
period from October 9, 2003, through April 19, 2005, we reviewed elements of
the HSA JCSG standard operating procedures to determine HSA JCSG
compliance. Our review of the implementation of the standard operating
procedures included:

        •   examining nondisclosure agreements for the attendees of 11 meetings
            selected for the period from March 19, 2003 through November 2,
            2004;

        •   attending staff calls and working group meetings from August 2003
            through May 2005;

        •   reviewing conversion of non-automated data from June 16,
            2004 through June 22, 2004;

        •   examining document controls including markings, tracking logs, and
            using e-mail and facsimile; and

        •   observing office practices and computer security controls.




                                     15
           Scope Limitations. We did not review the use of the Optimization model
           because it was not required by any of the policy memorandums issued by the
           Under Secretary of Defense for Acquisition, Technology, and Logistics. In
           addition, we were unable to fully validate two potential candidate
           recommendations (HSA-0047 and HSA-00531) developed by the Major
           Administrative and Headquarters Activities Subgroup because of time constraints.
           We did, however, review the “One-Time Unique and Miscellaneous Recurring
           Savings” associated with each of the two potential candidate recommendations.
           Further, we did not validate four additional potential candidate recommendations
           (HSA-0065, HSA-0069, HSA-0092, and HSA-0122) because they were provided
           to the Military Departments for further analysis. We did not verify that the HSA
           JCSG incorporated issues identified during our data integrity reviews into the
           final Capacity Analysis and Military Value Analysis reports.

           Capacity Analysis. We planned to review all data elements that the HSA JCSG
           used for capacity analysis and the adequacy of the audit trails. From November
           2004 through February 2005, we attempted the first validation of the HSA JCSG
           capacity analysis data; however, because the HSA JCSG did not provide all the
           data and the initial audit trails were insufficient, we were unable to perform a
           complete validation. We obtained the HSA JCSG capacity analysis spreadsheets
           and documented methodologies from subgroup or team leaders and compared
           them to the certified data in the OSD Master Database or to the data collected
           external to the database that were to be certified by designated appropriate
           personnel. Table 1 shows the date we received the data from the HSA JCSG and
           the date of the OSD Master Database extract that we used for comparison
           purposes. We discussed the results of the initial capacity analysis validation with
           the appropriate HSA JCSG subgroup or team and issued eight memorandums
           summarizing the results.




1
    The DoD OIG is 1 of 9 Defense agencies or organizations encompassing 35 locations included in this
    recommendation.
                                                     16
 Table 1. Dates for Comparison of HSA JCSG Capacity Analysis Data and
               the OSD Master Database–Initial Validation

                                               Received Initial HSA                 OSD Master Database
            Subgroup/Team
                                                   JCSG Data                           Extract Date
 Civilian Personnel                              December 16, 2004                    November 8, 2004
 Corrections                                     December 17, 2004                    November 8, 2004
 Financial Management                            December 6, 2004                     November 8, 2004
 Financial Management1                           December 6, 2004                     November 8, 2004
 Installation Management                         November 8, 2004                     November 15, 2004
 Major Administrative and                        December 17, 2004
                                                                                      November 15, 2004
 Headquarters Activities
 Military Personnel                              December 15, 2004                     November 8, 2004
 Mobilization2                                   November 19, 2004                     November 8, 2004
 1
     We issued two memorandums for the Financial Management Capacity Analysis data.
 2
     We prepared one memorandum for the Mobilization Team Capacity Analysis and Military Value Analysis data.


We revalidated capacity analysis data from March 2005 through May 2005. The
same process used for the initial validation was also used for the revalidation. We
discussed the results of the revalidation with the appropriate HSA JCSG subgroup
or team and incorporated the results in the Finding section of this report. The
table below identifies the dates that we received the HSA JCSG capacity analysis
spreadsheets from the HSA JCSG subgroup or team leaders and the date of the
OSD Master Database extract that was used for comparison purposes.

 Table 2. Dates for Comparison of HSA JCSG Capacity Analysis Data and
                  the OSD Master Database–Revalidation


                                                Received Intial HSA                   OSD Master Database
           Subgroup/Team                            JCSG Data                            Extract Date

 Civilian Personnel                                March 23, 2005                          March 21, 2005
 Corrections                                       March 24, 2005                          March 21, 2005
 Financial Management                              March 16, 2005                          March 14, 2005
 Installation Management                           March 16, 2005                          March 14, 2005
 Major Administrative and                          March 28, 2005                          March 21, 2005
 Headquarters Activities
 Military Personnel                                March 18, 2005                          March 14, 2005
 Mobilization                                      March 24, 2005                          March 21, 2005


During June 2005, between the issuance of the draft and final reports, we only
revalidated data discrepancies and audit trail issues identified in the draft audit
report. Specifically, we reviewed corrections made to the Installation
Management Team’s capacity analysis spreadsheets. We obtained updated HSA

                                                    17
JCSG capacity analysis spreadsheets and documented methodologies from the
team leaders on June 9, 2005. We compared them to the certified data extracted
from the OSD Master Database (see Table 2). The results of the revalidation
were incorporated into the Finding section of this report.

Military Value Analysis. We planned to review all data elements that the HSA
JCSG used for military value analysis and the adequacy of the audit trails. From
November 2004 through March 2005, we attempted the first validation of the
HSA JCSG military value analysis data. However, because the HSA JCSG did
not provide all of the data and the initial audit trails were insufficient, we were
unable to perform a complete validation. We obtained the HSA JCSG military
value spreadsheets and documented methodologies from the HSA JCSG subgroup
or team leaders and compared them to the certified data in the OSD Master
Database or to data collected external to the database that were to be certified by
designated appropriate personnel or to authoritative data sources. Table 3 shows
the date we received the data from the HSA JCSG and the date of the OSD
Master Database extract that was used for comparison purposes. We discussed
the results of the initial military value analysis validation with the appropriate
HSA JCSG subgroup or team and issued seven memorandums summarizing the
results.

Table 3. Dates for Comparison of HSA JCSG Military Value Analysis Data
            and the OSD Master Database–Initial Validation


                                                 Received Initial HSA JCSG              OSD Master Database
              Subgroup/Team                                 Data                           Extract Date

 Civilian Personnel                                   December 16, 2004                    November 8, 2004
 Corrections                                          December 17, 2004                    November 8, 2004
 Financial Management                                 September 7, 2004                    November 8, 2004
 Installation Management                              November 8, 2004                     November 8, 2004
 Major Administrative and                              January 6, 2005                     November 8, 2004
 Headquarters Activities
 Military Personnel                                   December 15, 2004                    November 8, 2004
 Mobilization*                                        November 19, 2004                    November 8, 2004
 *
     We prepared one memorandum for the Mobilization Team Capacity Analysis and Military Value Analysis data.



We revalidated military value analysis data from March 2005 through May 2005.
The same process used in the initial validation was also used for the revalidation.
We discussed the results of the revalidation with the appropriate HSA JCSG
subgroup or team and incorporated the results in the Finding section of this report.
Table 4 identifies the dates that we received the HSA JCSG military value
spreadsheets from the HSA JCSG subgroup or team leaders and the date of the
OSD Master Database extract that we used for comparison purposes.



                                                    18
Table 4. Dates for Comparison of HSA JCSG Military Value Analysis Data
               and the OSD Master Database–Revalidation


                                    Received Initial HSA      OSD Master Database
         Subgroup/Team                  JCSG Data                Extract Date

 Civilian Personnel                      March 23, 2005         March 21, 2005
 Corrections                             March 24, 2005       March 14 and 21, 2005
 Financial Management                    March 16, 2005         March 14, 2005
 Installation Management                 March 16, 2005         March 14, 2005
 Major Administrative and                March 28, 2005         March 21, 2005
 Headquarters Activities
 Military Personnel                      March 18, 2005          March 14, 2005
 Mobilization                            March 24, 2005          March 21, 2005


During June 2005, between the issuance of the draft and final reports, we only
revalidated data discrepancies and audit trail issues identified in the draft audit
report. Specifically, we reviewed corrections made to the Civilian Personnel
Team, the Major Administrative and Headquarters Activities Subgroup and the
Mobilization Subgroup’s military value analysis spreadsheets. We obtained
updated HSA JCSG military value analysis spreadsheets and documented
methodologies from the subgroup or team leaders on June 15, 2005. We
compared them to the certified data extracted from the OSD Master Database (see
Table 4). The results of the revalidation were incorporated into the Finding
section of this report.

COBRA Model Input. We reviewed all COBRA model input for 15 of
21 potential candidate recommendations. We also reviewed the COBRA model
input for determining the “One-Time Unique and Miscellaneous Recurring
Savings” for two other potential candidate recommendations (HSA-0047 and
HSA-0053). We used COBRA model version 6.10, beginning April 2005, for our
review. We compared the COBRA model input to certified data, derived data,
and authoritative data as identified in the audit trails created by the HSA JCSG
subgroups and teams. See Appendix C for additional details regarding the
COBRA model input review.

Use of Computer-Processed Data. We relied on computer-processed data from
the OSD Master Database and the HSA JCSG Master Database. Our review of
the controls over the HSA JCSG Master Database provided reasonable assurance
of the validity of the data. Assessing the reliability of the OSD Master Database
was beyond the scope of our review.

Use of Technical Assistance. Statisticians from the Analysis, Planning, and
Technical Support, Quantitative Methods Division, Office of the Assistant
Inspector General for Auditing provided assistance by reviewing military value
calculations in the HSA JCSG military value models.

                                    19
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Federal Real Property and the DoD Approach to
    Business Transformation, DoD Support Infrastructure Management high-risk
    areas.

    Audit Type, Dates, Standards. We performed this performance audit from June
    2003 through June 2005 in accordance with generally accepted government
    auditing standards.

    Contacts During the Audit. We visited or contacted organizations within DoD.
    Further details are available upon request.


Management Control Program Review
    We evaluated the HSA JCSG management controls for documenting and
    safeguarding information associated with the BRAC 2005 data calls, as directed
    by the OSD ICP. Specifically, we reviewed nondisclosure agreements,
    deliberative meeting minutes, proper marking and storage of BRAC data, and
    supporting documentation for the HSA JCSG BRAC data. Management controls
    were adequate as they applied to the audit objectives (see the Finding section of
    this report for specific details). The JCSGs were specifically established as part
    of the BRAC process and therefore would not have management control programs
    outside the BRAC process.




                                        20
Appendix B. Prior Coverage
    During the last 5 years, the DoD Inspector General and Army Audit Agency
    issued 17 memorandums and reports related to HSA JCSG and 1 report on the
    COBRA model for BRAC 2005.

DoD Inspector General
    DoD IG Memorandum, “Re-validation of the Base Realignment and Closure 2005
    Specific Capacity Data Used by the Geographic Clusters Subgroup-Financial
    Management Team,” March 9, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Data Used by the Geographic Clusters and Functional Subgroup-Installation
    Management Team for Military Value Analysis,” March 8, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Data Used by the Geographic Clusters and Functional Subgroup-Civilian
    Personnel Team for Military Value Analysis,” March 3, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Data Used by the Geographic Clusters and Functional Subgroup-Corrections
    Team for Military Value Analysis,” March 3, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Data Used by the Geographic Clusters and Functional Subgroup-Military
    Personnel Team for Military Value Analysis,” March 3, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Capacity Data Used by the Geographic Clusters and Functional Subgroup-
    Civilian Personnel Team,” March 2, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Capacity Data Used by the Geographic Clusters and Functional Subgroup-
    Corrections Team,” March 2, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Capacity Data Used by the Geographic Clusters and Functional Subgroup-
    Military Personnel Team,” March 2, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Data Used by the Mobilization Subgroup for Capacity and Military Value
    Analysis,” March 1, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Capacity Data Used by the Geographic Clusters Subgroup-Financial Management
    Team,” February 25, 2005
                                     21
    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Military Value Data Used by the Geographic Clusters Subgroup-Financial
    Management Team,” February 25, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Capacity Data Used by the Geographic Clusters Subgroup-Installation
    Management Team,” February 23, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Capacity Data Used by the Major Administrative Headquarters Subgroup,”
    February 23, 2005

    DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
    Data Used by the Major Administrative Headquarters Subgroup for Military
    Value Analysis,” February 23, 2005


Army Audit Agency
    Army Audit Agency Report No. A-2005-0169-ALT, “Validation of Army
    Responses for Joint Cross-Service Group Questions,” April 22, 2005

    Army Audit Agency Report No. A-2005-0083-ALT, “Army Military Value Data:
    The Army Basing Study 2005,” December 21, 2004

    Army Audit Agency Report No. A-2004-0544-IMT, “Cost of Base Realignment
    Action (COBRA) Model: The Army Basing Study 2005,” September 30, 2004

    Army Audit Agency Report No. A-2004-0484-IMT, “Validation of Army
    Capacity Data for Base Realignment and Closure 2005, Headquarters and Support
    Activities Joint Cross-Service Group,” September 2, 2004




                                     22
Appendix C. Review of COBRA Model
            Input for Potential Candidate
            Recommendations
   We reviewed the COBRA model input for 15 of 21 potential candidate
   recommendations. We evaluated each of the recommendations using COBRA
   model version 6.10. All issues identified during the review were brought to the
   attention of the HSA JCSG subgroups or teams. The HSA JCSG took action to
   correct most of the DoD OIG issues. In addition, the HSA JCSG sought approval
   from the ISG to use commercial data sources, and the principal members
   deliberated and approved the use of factors and methodologies to calculate AT/FP
   premiums and personnel reductions. After we issued the draft audit report, the
   HSA JCSG corrected most of the COBRA model input data discrepancies and
   audit trail issues. However, the HSA JCSG stated that not all of the corrections
   were forwarded to the OSD BRAC office. The following is a synopsis of our
   reviews for each potential candidate recommendation.

   Establishment of Joint Bases (HSA-0010). We identified a few data
   discrepancies and audit trail issues; however, the HSA JCSG took steps to address
   the issues. After corrections were made, the HSA JCSG created an adequate audit
   trail for HSA-0010 COBRA model input as of April 27, 2005. The COBRA
   model input was either judgment based or negotiated data derived from certified
   data. The methodology reflected a predominant use of subject-matter expertise
   and judgment, and contained a few numeric errors that had no impact on COBRA
   model input. The HSA JCSG documented assumptions taken for personnel
   reduction rates and justifications for the data exclusions. The HSA JCSG
   principal members reviewed and approved the methodology. The HSA JCSG
   applied different personnel reduction rates ranging from about 1 to 10 percent
   within the potential candidate recommendation. The COBRA model input did not
   include complete costs, savings, or military construction data that the Services
   provided for scenario specific data calls or allocations resulting from the Army
   scenario integration review.

   Consolidation of the Defense Finance and Accounting Service (HSA-0018).
   We identified a few data discrepancies and audit trail issues; however, the HSA
   JCSG took steps to address the issues. After corrections were made, HSA JCSG
   created an adequate audit trail for HSA-0018 COBRA model input as of May 4,
   2005. The COBRA model input was based on certified data and subject-matter
   expertise. The footnotes contained reasonable and well-documented
   methodologies. The HSA JCSG entered the certified DFAS response into the
   COBRA model for the DFAS Lawton site at Fort Sill, which moved six more
   personnel than authorized. The HSA JCSG erroneously adjusted the DFAS-
   reported personnel reductions for the DFAS Rock Island site at Rock Island
   Arsenal, which reduced personnel by three instead of five in FY 2009. After we


                                      23
issued the draft report, the HSA JCSG corrected the data discrepancies identified
regarding personnel. However, the HSA JCSG stated that the corrections were
not included in the submission to the OSD BRAC office.

Consolidation of Civilian Personnel Offices within the Military Departments
and Defense Agencies (HSA-0031). We identified a few data discrepancies and
audit trail issues; however, the HSA JCSG took steps to address the issues. After
corrections were made, the HSA JCSG created an adequate audit trail for HSA-
0031 COBRA model input as of April 27, 2005. The footnotes contained
reasonable and well-documented methodologies and COBRA model input was
based on certified and derived data. The HSA JCSG also used subject-matter
expertise for COBRA model input. Included in the COBRA model input were the
following: an AT/FP premium calculation for “One-Time Unique Savings,”
which equated to about $10.6 million; CoStar calculations for “Miscellaneous
Recurring Savings,” for COBRA which equated to about $19.7 million from
FY 2010 through FY 2011; and the HSA JCSG applied personnel reduction rates
of 12.5 and 17.7 percent, respectively, to each relocating Navy and Army sites
considered in the potential candidate recommendation.

Consolidation of the Defense Information Systems Agency (HSA-0045). We
identified a few data discrepancies and audit trail issues; however, the HSA JCSG
took steps to address the issues. After corrections were made, the HSA JCSG
created an adequate audit trail for HSA-0045 COBRA model input as of May 10,
2005. In most cases, with the exception of a few additional references required to
complete the footnotes, the footnotes contained reasonable and well-documented
methodologies. COBRA model input was based on certified data, derived data,
and subject-matter expertise. Included in the COBRA model input were the
following: an AT/FP premium calculation for “One-Time Unique Savings,”
which equated to about $18.7 million and CoStar/SIOR calculations for
“Miscellaneous Recurring Savings,” for COBRA which equated to about
$33.2 million from FY 2010 through FY 2011. After we issued the draft audit
report, the HSA JCSG included additional references to complete the footnotes.
However, the HSA JCSG stated that the additional references were not included
in the submission forwarded to the OSD BRAC office.

Creation of New Media and Publications Agency (HSA-0071). We identified
a few data discrepancies and audit trail issues; however, HSA JCSG took steps to
address most of the issues. After corrections were made, HSA JCSG created a
generally adequate audit trail for HSA-0071 COBRA model input as of May 5,
2005. In most cases, with the exception of a few additional references required to
complete the footnotes, the footnotes contained reasonable and well-documented
methodologies. COBRA model input was based on certified data, derived data,
and subject-matter expertise. Included in the COBRA model input were the
following: an AT/FP premium calculation for “One-Time Unique Savings,”
equating to about $2.6 million and CoStar/SIOR calculations for “Miscellaneous
Recurring Savings,” for COBRA, which equated to about $11.9 million from
FY 2008 through FY 2011. Also, the HSA JCSG applied a personnel reduction
rate different from the Military Departments to the one Defense organization
included in the potential candidate recommendation. After we issued the draft

                                    24
audit report, the HSA JCSG included additional references to complete the
footnotes. However, the HSA JCSG stated that the additional footnote references
were not included in the submission forwarded to the OSD BRAC office.

Consolidation of Navy Leased Locations (HSA-0078). We identified many
data discrepancies and audit trail issues; however, the HSA JCSG took steps to
address the issues. After corrections were made, the HSA JCSG created an
adequate audit trail as of June 20, 2005. The COBRA model input was based on
certified and derived data. The HSA JCSG also used subject-matter expertise for
COBRA model input. Included in the COBRA model input were the following:
an AT/FP premium calculation for “One-Time Unique Savings,” which equated
to about $15.3 million and CoStar calculations for “Miscellaneous Recurring
Savings,” for COBRA, which equated to about $38.5 million from FY 2009
through FY 2011. However, the corrections reflected in the June 20, 2005,
COBRA model input were not included in HSA JCSG submission to the OSD
BRAC office.

Collocation of Adjudication Activities (HSA-0099). We identified a few data
discrepancies and audit trail issues. The HSA JCSG took steps to address some
issues; however, issues remained unresolved for COBRA model input as of
May 4, 2005. Specifically, additional references were required to complete
footnotes and documentation was needed to support COBRA model input.
Although the input was based on certified data, the HSA JCSG also used subject-
matter expertise and derived data for COBRA model input. Included in the
COBRA model input were the following: an AT/FP premium calculation for
“One-Time Unique Savings,” which equated to about $3.9 million; CoStar/SIOR
calculations for “Miscellaneous Recurring Savings,” for COBRA, which equated
to about $11.3 million from FY 2006 through FY 2011; the HSA JCSG
application of a 7 percent personnel reduction rate; and abnormal rounding, which
overstated personnel reductions and understated personnel movements by
three officers, four enlisted personnel, and seven civilians and resulted in an
approximate $509,000 per year overstatement of “Miscellaneous Recurring
Savings” from contractor reductions beginning in FY 2009. After we issued the
draft audit report, the HSA JCSG included additional references to complete the
footnotes and provided additional supporting documentation. However, the HSA
JCSG stated that the additional footnote references were not included in the
submission forwarded to OSD BRAC office.

Consolidation of Counterintelligence Field Activity and Defense Security
Service and Collocation of Counterintelligence Field Activity Components
(HSA-0108). We identified a few data discrepancies and audit trail issues. The
HSA JCSG took steps to address most of the issues; however, issues remained
unresolved for COBRA model footnotes as of June 21, 2005. Specifically,
additional references were required to complete the footnotes. Although the input
was based on certified data, HSA JCSG also used subject-matter expertise and
derived data for COBRA model input. Included in the COBRA model input were
the following: an AT/FP premium calculation for “One-Time Unique Savings,”
which equated to about $12.1 million; CoStar/SIOR calculations for
“Miscellaneous Recurring Savings,” for COBRA, which equated to about

                                   25
$40.9 million from FY 2009 through FY 2011; the HSA JCSG application of a
7 percent personnel reduction rate; and abnormal rounding, which overstated
personnel reductions and understated personnel movement by two officers, one
enlisted position, and six civilians and resulted in an approximate $972,000
overstatement of “Miscellaneous Recurring Savings” from contractor reductions
beginning in FY 2009.

Consolidation of the Defense Commissary Agency (HSA-0109). We identified
a few data discrepancies and audit trail issues; however, the HSA JCSG took
steps to address most of the issues. After corrections were made, the HSA JCSG
created a generally adequate audit trail for HSA-0109 COBRA model input as of
April 30, 2005. In most cases, with the exception of a few additional references
required to complete footnotes, the footnotes contained reasonable and well-
documented methodologies. The COBRA model input was based on certified and
derived data. The HSA JCSG also used subject-matter expertise for COBRA
model input. Included in the COBRA model input were the following: an AT/FP
premium calculation for “One-Time Unique Savings,” which equated to about
$2.8 million in FY 2009; CoStar/SIOR calculations for “Miscellaneous Recurring
Savings,” for COBRA, which equated to about $3.6 million from FY 2009
through FY 2011; and abnormal rounding, which overstated personnel reductions
and understated personnel movement by one officer and one civilian. After we
issued the draft audit report, HSA JCSG included additional references to
complete the footnotes. However, the HSA JCSG stated that the additional
footnote references were not included in the submission forwarded to the OSD
BRAC office.

Collocation of U.S. Transportation Command (HSA-0114). We identified a
few data discrepancies and audit trail issues; however, the HSA JCSG took steps
to address most of the issues. After corrections were made, the HSA JCSG
created a generally adequate audit trail for HSA-0114 COBRA model input as of
May 4, 2005. However, the HSA JCSG used the incorrect square footage for the
Alexandria/ I-395 location. In most cases, the footnotes contained reasonable and
well-documented methodologies and the COBRA model input was based on
certified and derived data. The HSA JCSG also used subject-matter expertise for
COBRA model input. Included in the COBRA model input were the following:
an AT/FP premium calculation for “One-Time Unique Savings,” which equated
to about $5.2 million, and a CoStar calculation for “Miscellaneous Recurring
Savings,” for COBRA, which equated to $23.4 million from FY 2008 through
FY 2011. After we issued the draft report, the HSA JCSG corrected the square
footage data. The change in square footage increased the “One-Time Unique
Savings” to about $6.9 million and increased the “Miscellaneous Recurring
Savings” to about $32.3 million. However, the HSA JCSG stated that the
corrections were not forwarded to the OSD BRAC office.

Relocation of Navy Education and Training Activities (HSA-0130). We
identified a few data discrepancies and audit trail issues; however, the HSA JCSG
took steps to address the issues. After corrections were made, the HSA JCSG
created an adequate audit trail for HSA-0130 COBRA model input as of May 3,
2005. The footnotes contained reasonable and well-documented methodologies

                                   26
and COBRA model input was based on certified and derived data. The HSA
JCSG applied a personnel reduction rate of 7 percent to personnel moving from
Naval Air Station Pensacola.

Collocation of Miscellaneous Air Force and National Guard Headquarters
Leased Locations (HSA-0132). We identified a few data discrepancies and audit
trail issues; however, the HSA JCSG took steps to address the issues. After
corrections were made, the HSA JCSG created a generally adequate audit trail for
HSA-0132 COBRA model input as of May 4, 2005. The HSA JCSG entered
inaccurate data for moving personnel and equipment from the Alexandria/ I-395
and Rosslyn locations to Andrews Air Force Base and inaccurate cost and savings
data for the Alexandria/ I-395 location. In most cases, the footnotes contained
reasonable and well-documented methodologies and COBRA model input was
based on certified and derived data. The HSA JCSG also used subject–matter
expertise for COBRA model input. Included in the COBRA model input were the
following: an AT/FP premium calculation for “One-Time Unique Savings,”
which equated to about $15.1 million; CoStar/SIOR calculations for
“Miscellaneous Recurring Savings,” for COBRA, which equated to about
$50.8 million from FY 2009 through FY 2011; and the HSA JCSG applied a
personnel reduction rate of 7 percent to personnel moving from Crystal City,
Arlington Hall, and Andrews Air Force Base. After we issued the draft audit
report, HSA JCSG corrected the data discrepancies identified, which decreased
the “One-Time Unique Savings” to about $14.6 million and decreased the
“Miscellaneous Recurring Savings” to about $49.6 million. However, the HSA
JCSG stated that the corrections reflected in the June 20, 2005, COBRA model
input were not forwarded to the OSD BRAC office.

Creation of Joint Mobilization Sites (HSA-0133). We identified a few data
discrepancies and audit trail issues; however, the HSA JCSG took steps to address
the issues. After corrections were made, the HSA JCSG created an adequate audit
trail for HSA-0133 COBRA model input as of April 21, 2005. The footnotes
contained reasonable and well-documented methodologies and COBRA model
input was based on certified and derived data. The HSA JCSG applied a
10 percent personnel reduction rate to the losing location.

Consolidation of Correctional Facilities (HSA-0135). We identified a few data
discrepancies and audit trail issues; however, the HSA JCSG took steps to address
most of the issues. After corrections were made, the HSA JCSG created an
adequate audit trail for HSA-0135 COBRA model input as of May 6, 2005. In
most cases, with the exception of a few additional references required to complete
footnotes, the footnotes contained reasonable and well-documented
methodologies and COBRA model input was based on certified data.

Consolidation and Collocation of Army and Air Force Personnel and
Recruiting Centers (HSA-0145). We identified a few data discrepancies and
audit trail issues; however, the HSA JCSG took steps to address the issues. After
corrections were made, the HSA JCSG created an adequate audit trail for HSA-
0145 COBRA model input as of April 25, 2005. The footnotes contained
reasonable and well-documented methodologies and COBRA model input was

                                    27
based on certified and derived data. The HSA JCSG also used subject–matter
expertise for COBRA model input. Included in the COBRA model input were the
following: an AT/FP premium calculation for “One-Time Unique Savings,”
which equated to about $30.3 million in FY 2008, and CoStar/SIOR calculations
for “Miscellaneous Recurring Savings, ” for COBRA which, equated to about
$126.6 million from FY 2008 through FY 2011.




                                 28
Appendix D. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)
     Chairman, Headquarters and Support Activities Joint Cross-Service Group


Non-Defense Federal Organization
     Government Accountability Office




                                        29
Headquarters and Support Activities Joint
Cross-Service Group Comments


            C.7rLNmw




     DAPR-ZB
                                                                                    2 0 -

     MEMORANEXTM FOR KNCNSTTCTOR GENERAL OP TTIE DEPARTMENT OF
     DEFENSE
     s r m C T : Rea- lo Draff f u m u m -       d Suppmt m t i t s Joint
     C          ~ chupw~ Integrity#and r n t m d ckntroi h e s w fw B w R d g a m t n t
     andClmure2005


     1 . Kcfcrcnces

       r Disiwiun Draft 0 t h Rn@          Rcporr. Prnjsct Na. M 0 0 3 - D W W G b f 35.000,
     I,,Imdqaam~  Sargport Activities J& Cross-Mw Gmwp D m ;Inte& md h~rntlI
     C O W -4es    for B a s R e a l i p m m t aod CfoJure 2005, md&d

        b. R e t p n s 8 t a Di!w&m DCI*ft.fo~Hedquubm
                                                     mxl S u m A d v i *  Joint -5-
             Group Dnta htcfity d I ; m d d ConhJ Prwcsses fm i3ase Realignment and
     Clwnae 2QQS,2'1May 2005.

        o. &&t d a P x o p o a d Report. Pwjcct No. D2003-IX)#CG& 13S5g10Q,
                                                                          Zfmdqwef9
     and S u m ActiwUtiesJoint Oasa-Samice Cnroup Data Xnkgrity m d Iderml Contml
              for h Wgnmwt:d Cloknrre 2003,I 0 JUP~F2005.

     2 . We hwt r d e w e d the isma contained within the draft o f y m e u d t reprt far QDE
     Hedq-             axPd SclaQOrt Astiwtits J ~ l nht 8 - % w i C C h u p (HSA JCSG). We
                     k c f l d to W e the prwess more m u m k and defen&le, atxi w fel our
     a p p r ~ ~ i syour
     racummc&tims      =        m n F b i x u w ufthts cffom.

     3. Your d d t ~ p rspxif3m
                          t      m t m t s-fit  &-ics     thwc have con5uued ta work.
     Wc *I   r k iaa&s thm remain m very smnll ixl rn- to tiae:%OM
                                                                 ofwell ovcr 15.W data
     pcrlnw uderrwxrcollxichadan. In add&on,&csefp56c &ficicnciahvermm&d
     smpau on ow r-bations.

     4. There am six arws wtmc w crmtinur:rn di4.a-  with you tmt of n ~ t d v snu*u;~.   c
     ddved dah,--W&            darts <no&&       &a e l m ) , A n t i - T d s d F a r c c
     ~ t r x t i a q R P r x i r m r . & c f ~ I(cmnmmial
                                                  ~ ~     C k f h ~ m a ld
                                                                         ,
                                         . txplaine?d in W
     aliminanodmmding ( g c m ~ e l m } As                                 f in R & w m 1 .b.
     these m A h d o h g i ~were          to m p l i d a our mudytit;irl FVCCQA,   have bben
     &l~bmt&,nnd remain cotlsistat with muireme of the BRAC m s                    . T: lst of thew
     &od6logh imka our mmmnmdatiom hir, wcwmte. and robust


                                      -   m   @   ~   -




                                                  --
I3APR-ZB
SlBfECT: Rmponw ta DiwussimDmfA fss Hmuwtms and Support Activiticrs IQ&
Caws-%mice: #mup Data I-ty und Intend C A ~Pmetsw
                                            I     for E h e Rdgnmmt
4Cxustart 2 W 5

5. Please direct any issues or questions to the HSA J C S Q point of wmtsct, COL Carla




                                       DONALD C.T E O M
                                       ks3i-t        Chid of 3
                                                             -,        G-8
                                       C3baimm. HSA JCSG
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Culp
COL William J. Kelley
Frank C. Sonsini
Timothy Wimette
Ronald W. Hodges
Dharam V. Jain
Lusk F. Penn
Lisa M. Such
Pamela S. Varner
Bobbie S. Wan
Kandy T. Adams
Gary B. Dutton
Joseph M. Kaseler
Marcia L. Kilby
Stephanie N. Lay
John G. LaBelle
Mary Reynolds
Gwynne M. Roberts
Alejandra P. Rodriguez
John C. Furutani
Kelly D. Garland
Curtis P. Greene
Justin C. Husar
Angela M. Kendera
Miwon Kim
Chasy L. Miller
Jeffrey L. Steinbauer
Michael T. Banach
Courtney V. Biggs
Chad J. Evans
Phillip M. Faller
Jordan P. Guinto
Gregory J. Abrahamson
Robert M. Donahoe
Romelia Ramirez
Ryan J. Reffel
Meredith H. Johnson
Jacqueline N. Pugh
